USCA4 Appeal: 20-4168

Doc: 18

Filed: 03/01/2021

Pg: 1 of 5

UNPUBLISHED
UNITED STATES COURT OF APPEALS'
FOR THE FOURTH CIRCUIT
No. 20-4168
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
TYRONE DAVIS,
Defendant - Appellant.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. William L. Osteen, Jr., District Judge. (l:19-cr-00174-WO-l)
Submitted: February 1, 2021

Decided: March 1, 2021

Before MOTZ, KING, and HARRIS, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Mark A. Jones, BELL, DAVIS & PITT, PA, Winston-Salem, North Carolina, for
Appellant. Terry Michael Meinecke, Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Greensboro, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-4168

Doc: 18

Filed: 03/01/2021

Pg:2of5

PER CURIAM:
Tyrone Davis pleaded guilty, pursuant to a written plea agreement, to possession of
a firearm as a convicted felon, in violation of 18 U.S.C. §§ 922(g), 924(a)(2). Appellate
counsel has filed a brief pursuant to Anders v. California, 386 U.S. 738 (1967), concluding
that there are no meritorious grounds for appeal but questioning whether Davis’ plea was
knowing and voluntaiy and whether the district court abused its discretion in denying
Davis’ motions to withdraw his guilty plea. Davis has filed a supplemental brief, arguing
that his sentence is procedurally unreasonable because the district court erred in calculating
his advisory Sentencing Guidelines range. For the following reasons, we affirm
/

With respect to the validity of Davis’ plea, a guilty plea is valid if the defendant
voluntarily, knowingly, and intelligently pleads guilty “with sufficient awareness of the
relevant circumstances and likely consequences.” United States v. Fisher, 711 F.3d 460,
464 (4th Cir. 2013) (internal quotation marks omitted). “In evaluating the constitutional
validity of a guilty plea, courts look to the totality of the circumstances surrounding it,
granting the defendant’s solemn declaration of guilt a presumption of truthfulness.” United
States v. Moussaoui, 591 F.3d 263, 278 (4th Cir. 2010) (brackets and internal quotation
marks omitted). Before accepting a guilty plea, the district court must conduct a plea
colloquy in which it informs the defendant of, and determines he understands, the rights he
is relinquishing by pleading guilty, the charge to which he is pleading, and the maximum
and mandatory minimum penalties he faces. Fed. R. Crim. P. 11(b)(1); United States v.
DeFusco, 949 F.2d 114, 116 (4th Cir. 1991). The district court also must ensure that the
plea was voluntary and not the result of threats, force, or promises not contained in the plea
2

USCA4 Appeal: 20-4168

Doc: 18

Filed: 03/01/2021

Pg:3of5

agreement, Fed. R. Crim. P. 11(b)(2), and “that there is a factual basis for the plea,” Fed.
R. Crim. P. 11 (b)(3). However, any variance from the requirements of Rule 11 “is harmless
error if it does not affect substantial rights.” Fed. R. Crim. P. 11(h). After reviewing the
record, we conclude that Davis’ plea was knowing, voluntary, and supported by a sufficient
factual basis.
Moving to Davis’ motions to withdraw his guilty plea, we review a district court’s
denial of such a motion for abuse of discretion. United States v. Nicholson, 676 F.3d 376,
383 (4th Cir. 2012). A criminal defendant may withdraw a plea after a court has accepted
it if he “can show a fair and just reason for requesting the withdrawal.” Fed. R. Crim.
P• 11(d)(2)(B). A defendant does not have an absolute right to withdraw a guilty plea,
United States v. Walker, 934 F.3d 375, 377 n. 1 (4th Cir. 2019), and he “bears the burden
of demonstrating that withdrawal should be granted,” United States v. Thompson-Riviere,
561 F.3d 345, 348 (4th Cir. 2009) (internal quotation marks omitted).
A district court considers a variety of factors when deciding whether the defendant
has met his burden, including: (1) whether he provided credible evidence that his plea was
not knowing or voluntary, (2) whether he credibly asserted his legal innocence, (3) whether
there was a delay between entering the plea and moving for withdrawal, ,(4) whether he
had close assistance of competent counsel, (5) whether the withdrawal of the plea would
prejudice the government, and (6) whether the withdrawal would inconvenience the court
and waste judicial resources. United States v. Moore, 931 F.2d 245, 248 (4th Cir. 1991).
We have thoroughly reviewed the record and the relevant legal authorities and conclude

3

USCA4 Appeal: 20-4168

Doc: 18

Filed: 03/01/2021

Pg:4of5

that the district court did not abuse its discretion in denying Davis’ motions to withdraw
his guilty plea.
Finally, Davis argues that the district court erroneously calculated his advisory
Sentencing Guidelines range. We review criminal sentences for reasonableness “under a
deferential abuse-of-discretion standard.” United States v. Lynn, 912 F.3d 212, 216 (4th
Cir. 2019) (internal quotation marks omitted). In determining procedural reasonableness,
we must consider whether the district court properly calculated the Guidelines range,
treated the Guidelines as advisory rather than mandatory, gave the parties an opportunity
to argue for an appropriate sentence, considered the 18 U.S.C. § 3553(a) factors, selected
a sentence based on accurate facts, and sufficiently explained the chosen sentence. Gall v.
United States, 552 U.S. 38, 49-51 (2007). “In assessing whether a sentencing court
properly applied the Guidelines, we review the court’s factual findings for clear error and
its legal conclusions de novo.” United States v. Dennings, 922 F.3d 232, 235 (4th Cir.
2019) (internal quotation marks omitted). Our review of the record demonstrates that the
district court did not err in calculating Davis’ advisory Guidelines range and that his
sentence is procedurally reasonable.
In accordance with Anders, we have reviewed the entire record in this case and have
found no meritorious grounds for appeal. We therefore affirm the district court’s judgment.
This court requires that counsel inform Davis, in writing, of the right to petition the
Supreme Court of the United States for further review. If Davis requests that a petition be
filed, but counsel believes that such a petition would be frivolous, then counsel may move

4

USCA4 Appeal: 20-4168

Doc: 18

Filed: 03/01/2021

Pg:5of5

in this court for leave to withdraw from representation. Counsel’s motion must state that
a copy thereof was served on Davis.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

5

